No. 20-804
In the

Supreme Court of the United States
HOUSTON COMMUNITY COLLEGE SYSTEM,
Petitioner,
v.
DAVID BUREN WILSON,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fifth Circuit

BRIEF FOR THE TEXAS ASSOCIATION
OF SCHOOL BOARDS LEGAL ASSISTANCE
FUND AS AMICUS CURIAE IN SUPPORT
OF PETITIONER
Meredith Prykryl Walker
Counsel of Record
Walsh Gallegos Treviño Russo
& Kyle P.C.
105 Decker Court, Suite 700
Irving, Texas 75062
(214) 574-8800
mwalker@wabsa.com
Counsel for Amicus Curiae
301176

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . ii
Interest of Amicus Curiae . . . . . . . . . . . . . . . . 1
Summary of Argument  . . . . . . . . . . . . . . . . . . . . 2
Argument for Granting the Petition . . . 5
I.

T he pu r p o se b eh i nd c en su r e s a nd
repr imands is self-gover nance —not
the curtailing of free speech rights . . . . . . . . . . . 6

II. The Fifth Circuit’s exercise in semantics
leaves duly elected boards without any
guidance as to when they allegedly run
afoul of the First Amendment  . . . . . . . . . . . . . . . 8
III. The ability to censure a board member is
an act of self-governance free of scrutiny
under the First Amendment . . . . . . . . . . . . . . . . 11
IV. The established ability of a board to
express its views through the censuring
of a board member does not implicate
the First Amendment  . . . . . . . . . . . . . . . . . . . . . 14
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

ii
TABLE OF CITED AUTHORITIES
Page
Cases
Blair v. Bethel Sch. Dist.,
608 F.3d 540 (9th Cir. 2010) . . . . . . . . . . . . .  4, 9, 10, 14
Blunt v. Lower Merion Sch. Dist.,
767 F.3d 247 (3d Cir. 2014) . . . . . . . . . . . . . . . . . . . . . 15
Monell v. Dep’t of Social Servs.,
436 U.S. 658 (1978) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Phelan v. Laramie County Cmty. Coll.
Bd. of Trustees,
235 F.3d 1243 (10th Cir. 2000), cert. denied,
532 U.S. 1020 (2001).  . . . . . . . . . . . . . . . . . .  4, 9, 15, 16
Pickering v. Bd. of Educ. of Township High Sch.
Dist.,
391 U.S. 563 (1968)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Pleasant Grove City, Utah v. Summum,
555 U.S. 460 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Sewell v. Monroe City Sch. Bd.,
974 F.3d 577 (5th Cir. 2020) . . . . . . . . . . . . . . . . . . . . 15
Werkheiser v. Pocono Township Bd. of
Supervisors,
704 Fed. App’x 156 (3d Cir. 2017), cert. denied,
138 S. Ct. 1001 (2018) . . . . . . . . . . . . . . . . . . . . . . . . 4, 9

iii
Cited Authorities
Page
Whitener v. McWatters,
112 F.3d 740 (4th Cir. 1997)  . . . . . . . . . . . . . . .  4, 11, 14
Zilich v. Longo,
34 F.3d 359 (6th Cir. 1994) . . . . . . . . . . . . . . . . . . . 4, 10

Statutes and Other Authorities
U.S. Const., Amend. I  . . . . . . . . . . . . . . . . . . . . . . . passim
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  15, 16
Miss. Code. A nn. § 37-5-7 . . . . . . . . . . . . . . . . . . . . . . . . 12
Tex. Civ. Prac. & Rem. Code §§ 66.001-66.003 . . . . . .  2
Tex. Educ. Code § 11.051 . . . . . . . . . . . . . . . . . . . . . . .  11
Tex. Educ. Code § 11.059 . . . . . . . . . . . . . . . . . . . . . . .  12
Tex. Gov ’t Code §§ 87.011-87.019  . . . . . . . . . . . . . . . . .  2
Tex. Educ. Code § 130.082 . . . . . . . . . . . . . . . . . . . . . .  11
Tex. Educ. Code § 130.084 . . . . . . . . . . . . . . . . . . . . . .  11
Tex. Educ. Code § 130.0845 . . . . . . . . . . . . . . . . . . . . . .  2

iv
Cited Authorities
Page
Tex. Gov ’t Code § 551.071 . . . . . . . . . . . . . . . . . . . . . . .  8
Tex. Gov ’t Code § 551.072 . . . . . . . . . . . . . . . . . . . . . . .  8
Tex. Gov ’t Code § 551.074  . . . . . . . . . . . . . . . . . . . . . . .  8
Tex. Gov ’t Code §551.076 . . . . . . . . . . . . . . . . . . . . . . . .  8
Tex. Gov ’t Code § 551.082 . . . . . . . . . . . . . . . . . . . . . . .  8
Tex. Gov ’t Code § 551.0821 . . . . . . . . . . . . . . . . . . . . . .  8
Tex. Gov ’t Code § 551.089 . . . . . . . . . . . . . . . . . . . . . . .  8
Tex. Gov ’t Code § 551.146  . . . . . . . . . . . . . . . . . . . . . . .  7
Handbook for Louisiana Sch. Bd. Members,
Louisiana Sch. Bds. Ass’n, Feb. 2019 . . . . . . . . . . . . 12
Henry M. Robert, Robert’s Rules of Order § 61  . . . . .  8
Kim Turner, Assistant Secretary of State,
Elections Division . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

1
Interest of Amicus Curiae*
Over 750 public school districts and community colleges
in Texas are members of amicus, the Texas Association
of School Boards Legal Assistance Fund (TASB LAF),
which advocates the interests of school districts and
community colleges in litigation with potential state-wide
impact. The TASB LAF is governed by members from
three organizations: the Texas Association of School
Boards, Inc. (TASB), the Texas Association of School
Administrators (TASA), and the Texas Council of School
Attorneys (CSA).
TASB is a Texas non-profit corporation whose
members include approximately 1,025 public school boards
in Texas, along with 50 Texas community colleges. As
locally elected boards of trustees, TASB’s members are
responsible for the governance of Texas public schools
and community colleges throughout the state. TASB’s
mission is to promote educational excellence for Texas
school children and community college students through
advocacy, leadership, and high quality services to TASB’s
members.
TASA represents the State’s school superintendents
and other administrators responsible for implementing
the education policies adopted by their local school boards
and for following state and federal law. CSA is comprised
* Pursuant to Rule 37.2(a), amicus provided timely notice of
its intention to file this brief to all counsel of record. All parties
consented to the filing of this brief. In accordance with Rule 37.6,
no counsel for any party authored this brief in whole or in part,
and no person or entity, other than amicus or its counsel, made
a monetary contribution toward the preparation or submission
of this brief.

2
of attorneys who represent more than 90 percent of Texas
independent school districts, as well as Texas community
colleges.
The TASB LAF has a strong interest in ensuring
that TASB’s members—locally elected boards—preserve
their right to self-govern. School boards operate as
bodies corporate with independent authority to establish
local policies and operating procedures. School boards
should be able to maintain these standards without fear
that individual members will cry foul when reprimanded
or censured for violating them by seeking intervention
from the federal district courts under the guise of a
First Amendment violation. Unfortunately, this is exactly
what the Fifth Circuit’s decision provides. The TASB
LAF submits this amicus brief accordingly to address
its interests in these issues and, more specifically, the
impact the Fifth Circuit’s decision has on school districts
and community colleges across Texas, Louisiana, and
Mississippi.
Summary of Argument
Members of the Board of Trustees of Petitioner
Houston Community College System (HCC) are elected by
the public to serve six-year terms. Once elected, however,
a Board member cannot be recalled by the electorate
or removed by his fellow Board members.1 This leaves
1. Various Texas statutes provide a cumbersome avenue for
the removal of Board members, which requires either intervention
by the attorney general or the county or district attorney or a
petition and trial in a district court. See Tex. Civ. Prac. & Rem.
Code §§ 66.001-66.003; Tex. Educ. Code § 130.0845; Tex. G ov ’t
Code §§ 87.011-87.019.

3
HCC’s Board, as well as other locally elected school and
community college boards across Texas, with very few
tools to address Board members whose conduct does
not fall within the expected norms of professionalism.
While few in number, those tools—including censure and
reprimand—ensure locally elected school and community
college boards can effectively govern and focus on their
mission of educating students without being undermined
by one of their own members.
To that end, if John Q. Board Member goes on a
social media rant espousing hateful and racist comments,
HCC could issue a censure or a reprimand to address his
conduct. 2 If, despite warnings, John Q. Board Member
repeatedly violates the Board’s bylaws, thereby disrupting
meetings and attacking fellow Board members, HCC could
issue a censure or a reprimand to address his conduct. If
John Q. Board Member releases confidential information
obtained during a closed session meeting of the Board,
HCC could reprimand or censure him accordingly.
Indeed, censure—a long held power utilized by elected
governmental bodies—allows the HCC Board to not only
self-govern but also to speak for itself by addressing and
denouncing John Q. Board Member’s conduct in order to
continue its important work of serving HCC’s students.
In reality, these “John Q. Board Member” scenarios
are far too common. School boards across Texas have been
challenged with individual board member misbehavior
including posting discriminatory social media rants,
2. While John Q. Board Member is fictitious, the scenarios
described herein are derived from news stories across Texas and
other states reflecting conduct similar in nature to that engaged
in by John Q. Board Member.

4
seeking special treatment because of the board member’s
elected office, independently investigating employees,
publicly releasing confidential information, demanding
district administrators forbid employees from speaking
Spanish in schools, openly criticizing fellow board
members, interfering in matters outside the scope of the
board member’s statutory duties as a trustee, violating
state election law, leaving board meetings early, yelling
at fellow trustees, and inappropriately criticizing a school
district’s teachers. This type of conduct undermines the
trust the public places in school and community college
boards through operational disruptions that prevent
boards from fulfilling the mission of educating students.
Under authority from the Third, Fourth, Sixth, Ninth,
and Tenth Circuit, HCC could censure the improper
conduct of John Q. Board Member without running afoul
of his First Amendment rights, as those courts recognize
HCC’s authority to self-govern and speak for itself. 3
Indeed, those circuits have clarified what constitutes
protected speech subject to redress under the First
Amendment and what conduct is insulated from challenge.
The same cannot be said in the circuit where
HCC resides, as the Fifth Circuit’s decision in favor of
Respondent David Wilson allows John Q. Board Member
to lay every petty internal squabble leading to a reprimand
against him at the feet of the federal district courts,
3. See Werkheiser v. Pocono Township Bd. of Supervisors,
704 Fed. App’x 156 (3d Cir. 2017), cert. denied, 138 S. Ct. 1001
(2018); Whitener v. McWatters, 112 F.3d 740 (4th Cir. 1997); Zilich
v. Longo, 34 F.3d 359 (6th Cir. 1994); Blair v. Bethel Sch. Dist.,
608 F.3d 540 (9th Cir. 2010); Phelan v. Laramie County Cmty.
Coll. Bd. of Trustees, 235 F.3d 1243 (10th Cir. 2000), cert. denied,
532 U.S. 1020 (2001).

5
thereby leaving HCC to choose between allowing John
Q. Board Member to run roughshod over the Board or
potentially facing his First Amendment claim.
But a choice between two equally unappealing options
is no choice at all; it is a dilemma. Under the Fifth Circuit’s
decision, the HCC Board faces either a First Amendment
lawsuit or an impermissible roadblock to self-governance
and expression of its own views. School districts and
community colleges outside of the Fifth Circuit do not
face this dilemma.
The Fifth Circuit’s decision is inconsistent with
existing jurisprudence in other circuits, intrudes on a local
authority’s ability to properly manage its own internal
affairs, and creates entirely new and judicially groundless
avenues for liability against public school districts,
community colleges, and any other entities governed by
elected boards of trustees across Texas, Louisiana, and
Mississippi. The Fifth Circuit’s decision cannot stand.
Argument for Granting the Petition
On January 18, 2018, HCC issued a Resolution of
Censure following Respondent David Wilson’s conduct
“demonstrat[ing] a lack of respect for the [HCC] Board’s
collective decision-making process,” “fail[ing] to interact
with fellow Board members in a way that creates and
sustains mutual respect,” and violating Board policy. (Pet.
App. 42a-45a). Instead of accepting responsibility for his
actions that led to the Resolution of Censure, Wilson ran
to the courthouse steps alleging a First Amendment right
to sow discord among a duly elected governmental body,
and an accredited educational institution, by accusing his
fellow Board members of unethical and illegal conduct,

6
retaining private investigators to conduct surveillance
of a fellow Board member and to personally investigate
the Board and HCC as a whole, and filing suit against
HCC complaining of the Board’s interpretation of its own
bylaws. (Pet. App. 42a-45a).
The district court dismissed Wilson’s claims,
recognizing that the political consequences for Wilson’s
political actions—the Resolution of Censure— did
not create an injury-in-fact redressable under the
First A mendment since it neither prevented him
from performing his official duties nor prohibited him
from speaking publicly. The Fifth Circuit inexplicably
disagreed, thereby wrapping Wilson’s bad acts in the
protective blanket of the Constitution, disregarding the
well-established practice of censure within elected bodies,
and creating a split in the circuits.
Courts have long recognized that public reprimands
and even censures come with the territory when an
individual chooses to engage in the rough and tumble
nature of politics by holding public office. More importantly,
as Judge Ho aptly stated in the dissent from the rehearing
en banc order, “Leaders don’t fear being booed. And they
certainly don’t sue when they are.” (Pet. App. 41a). The
Fifth Circuit’s decision, however, is an open invitation for
political office holders to do just that.
I.

The purpose behind censures and reprimands is
self-governance—not the curtailing of free speech
rights.

Merriam-Webster defines “censure” as “1. a judgment
involving condemnation; 2. the act of blaming or
condemning sternly; 3. an official reprimand.” See https://

7
www.merriam-webster.com/dictionary/censure. This
definition accurately reflects that a public censure is not
an attempt to deprive any board member of his or her
First Amendment rights; instead, it is a simple attempt
at self-governance through an expression of disapproval
by a body of one’s elected peers.
A censure does not prevent a board member from
speaking out. A censure does not punish a board member
for using his or her voice. A censure does not prevent a
board member from continuing to engage in the same
conduct that resulted in the censure in the first instance.
A censure does not impede a board member’s ability to
act as an elected official. Rather, a censure acts as an
attempted check on board member conduct in an effort to
curtail future unprofessional acts and ensure compliance
with board bylaws, rules, and codes of conduct.
Take, for example, John Q. Board Member who
runs to social media following school board meetings
to post information about the board’s closed session
discussions. His inability to keep such information in
confidence violates the board of trustees’ code of ethics.
The other board members have no recourse for his actions,
particularly given that disclosing information discussed in
closed session does not violate the Texas Open Meetings
Act or carry any civil or criminal penalties.4 This leaves a
public censure as the only method available to address, and
attempt to correct, John Q. Board Member’s misbehavior.
Indeed, “an organization or assembly has the ultimate
4. While the Texas Open Meetings Act provides civil and
criminal penalties for disclosing a certified agenda or recording
from a closed session board meeting, there are no similar penalties
outlined for word-of-mouth disclosure. See T ex . G ov ’t C ode
§ 551.146.

8
right to make and enforce its own rules, and to require
that its members refrain from conduct injurious to the
organization or its purposes.” Henry M. Robert, Robert’s
Rules of Order § 61 p.643.
What could be more injurious to a school board or
community college board than disseminating the very
information the Texas Open Meetings Act protects as
confidential—consultations with its attorneys, purchases
of real property, personnel matters, student matters, and
security? See Tex. Gov ’t Code §§ 551.071, .072, .074, .076,
.082, .0821, .089. Ensuring that John Q. Board Member
understands such information needs to remain confidential
and ensuring that he follows the board’s bylaws are the
fundamental purpose behind censure—not to silence his
point of view.
II. The Fifth Circuit’s exercise in semantics leaves duly
elected boards without any guidance as to when
they allegedly run afoul of the First Amendment.
The Fifth Circuit held Wilson had a cognizable First
Amendment claim against HCC because the speech
he alleged that resulted in the Reprimand of Censure
addressed a matter of public concern. (Pet. App. 14a). In
so holding, and in explaining the rationale for its decision,
the Fifth Circuit left school and community college boards
across Texas, Louisiana, and Mississippi without any
clear guideposts of how an elected governmental body
could self-govern its members and express its own views
through reprimand or censure without running afoul of
a board member’s First Amendment rights.
The Fifth Circuit failed to recognize that every
matter taken up by an elected school or community college

9
board, and addressed by its members, could conceivably
address a matter of public concern. While it is feasible to
separate speech addressing a matter of public concern
from private speech when it comes to public employees,
the same simply cannot be said for the speech of board
members who are elected by the public to manage and
oversee a governmental entity. Indeed, the very nature of
a board member’s position involves speaking on matters
of public concern.
The other circuits that have addressed this issue
rejected such an inapposite and nebulous First Amendment
analysis to claims from elected officials. In Phelan,
the Tenth Circuit rejected the Pickering 5 approach
applicable to public employees, but declined to adopt
another approach because the censure in question did
“not trigger First Amendment scrutiny,” which requires
“consequences that infringe protected speech.” Phelan,
235 F.3d at 1247. Given that the censure “did not prevent
[the plaintiff] from performing her official duties or
restrict her opportunities to speak,” there were no actual
consequences that stemmed from the censure. Id. at 1248.
The Third Circuit, likewise, focuses on whether a
politically motivated act such as a reprimand or censure
impedes an elected official’s “ability to carry out his
basic duties.” Werkheiser, 704 Fed. App’x at 158. Absent
actions by an elected body that interfere with a member’s
ability to carry out his duties as an elected official, a First
Amendment claim will not attach. Id. at 158-60.
The Ninth Circuit in Blair observed the plaintiff was
not “prototypical” given his status as an elected official.
5. See Pickering v. Bd. of Educ. of Township High Sch. Dist.,
391 U.S. 563 (1968).

10
Blair, 608 F.3d at 543-44. Indeed, the plaintiff’s removal
from a leadership position on the school board did not
trigger his First Amendment rights because “his authority
as a member of the [b]oard” remained unaffected in that
“he retained the full range of rights and prerogatives
that came with having been publicly elected.” Id. at 544.
It followed that the plaintiff’s removal from leadership
simply did not chill his free speech. Id.
In departing from other circuits, the only standard
supplied by the Fifth Circuit to help elected boards in
determining whether a censure runs afoul of the First
Amendment is to merely ask whether the speech in
question related to a matter of public concern. Under
such an untenable analysis, every scolding, reprimand, or
censure of an elected official’s misdeeds, by a body of his
peers, will necessarily relate to a matter of public concern.
Further confounding the line between an acceptable
censure and a censure violating the First Amendment
is the Fifth Circuit’s resort to semantics. Indeed, in its
decision, the Fifth Circuit dismissed as distinct from
censure the removal of a board member from the position
of officer (Blair) and the adoption of a disciplinary
resolution (Zilich). See Blair, 608 F.3d at 543-46; Zilich,
34 F.3d at 363-64. But these analogous decisions provide
very concrete examples of a governmental body’s
constitutionally sound chastising—censure in all but
name—of an elected peer.
While other circuits have set forth the limits on First
Amendment claims such as Wilson’s, the Fifth Circuit’s
exercise in semantics leaves school and community college
boards in Texas, Louisiana, and Mississippi grappling
with what exactly constitutes a matter of public concern

11
and what form an acceptable disciplinary action can take.
In other words, elected boards are flying blind in the Fifth
Circuit when it comes to the contours of self-governance
and the expression of their views.
III. The ability to censure a board member is an act
of self-governance free of scrutiny under the First
Amendment.
In accordance with the Texas Education Code, the
board of trustees for a local school district or community
college acts as a body corporate responsible for managing
the educational entity the board oversees. See T ex .
Educ. Code §§ 11.051, 130.082(d), 130.084. No governing
body directly oversees school and community college
boards and, as such, it falls to the board as a whole to
self-govern its members. See e.g., Whitener, 112 F.3d at
744 (“[B]ecause citizens may not sue legislators for their
legislative acts, legislative bodies are left to police their
own members.”).
This self-governance includes ensuring board
members comply with the board’s internal rules, operating
procedures, and bylaws. Absent such oversight and
lacking a mechanism allowing the electorate to recall
board members, the boards of trustees for community
colleges and school districts across Texas may take
action to reprimand or censure a board member. This is a
particularly important part of self-governance for entities
such as HCC, which only subjects its members to the
ultimate arbiter of their conduct—the ballot box—every
six years.6
6. This term is not unique to HCC. See Tex. Educ. Code
§ 130.082(e) (“The basic term of office of a member of the board

12
Take, for example, John Q. Board Member who, six
months into his six-year term at a community college
or school district somewhere in the Fifth Circuit, finds
himself unable to follow the rules allowing for professional
and orderly board meetings. In fact, his constant
disruptions at the board meetings and attacks on his
fellow trustees are running afoul of the board of trustees’
code of ethics, which provides that board members are to
respect the board’s collective decision-making process and
to interact with fellow board members in a manner that
sustains mutual respect. The other members of the board,
who are the target of John Q. Board Member’s constant
profanity, name-calling, and unfounded allegations of
misconduct during open board meetings, have had enough
of the complete disorder accompanying his rule violations
and unprofessionalism.
John Q. Board Member, though fictitious, represents
the tip of the iceberg of real-world examples of harmful
conduct public school boards have had to address in order
to remain effective in their mission of educating students.
For example, the Menomonie School Board in Wisconsin
shall be six years.”). Board members for local school districts
serve a term of three or four years. See id. at § 11.059(a). In
Mississippi, board members of the county board of education
are elected for terms of six years. See Miss. Code. A nn. § 37-57; School Board Elections, Kim Turner, Assistant Secretary of
State, Elections Division, at https://www.sos.ms.gov/ElectionsVoting/TrainingDocs/SchoolBoardPowerpoint.pdf, slide 3. And
board members in Louisiana serve four year terms. Handbook for
Louisiana Sch. Bd. Members, Louisiana Sch. Bds. Ass’n, Feb. 2019,
https://core-docs.s3.amazonaws.com/documents/asset/uploaded_
file/340634/LSBA_Manual_-_FINAL_document_42219.pdf,
pp.2-3.

13
moved to censure a board member for behavior that did
not meet the board’s expectations after “pound[ing] on the
desk while shouting profanities” at the board president.7
The Saugus Union School Board in California voted to
censure a board member for “public statements in the form
of online postings expressing support for Nazism, slavery
and segregation.”8 In Kentucky, the Great Clark County
School Board censured a member recently for “personal
attacks on the superintendent’s staff’s intelligence and
competence.” 9
Under the Fifth Circuit’s decision, all those very
real John Q. Board Members must do to get beyond
the federal courthouse steps is merely claim their
speech—like name-calling and unfounded allegations of
misconduct—addressed a matter of public concern. (Pet.
App. 14a). A John Q. Board Member’s mere suggestion
that—regardless of the time, manner, impact, or even
legality of his speech—he was speaking on a matter of
public concern will insulate him from any consequence
(i.e., a censure or a reprimand) for his conduct and even
7. See Menomonie School Board votes to censure member
behind outburst, at https://wqow.com/2020/08/14/menomonieschool-board-votes-to-censure-member-behind-outburst/.
8. See Saugus Union school board member in hot water
over alleged racist comments, at https://www.scpr.org/blogs/
education/2013/06/14/13993/saugus-union-school-board-memberin-hot-water-over/.
9. See GCCS board censures school board member for
‘unethical and unprofessional’ conduct, at https://www.wdrb.com/
news/gccs-board-censures-school-board-member-for-unethicaland-unprofessional-conduct/article_1324f416-39c4-11eb-9cc1ff8f111fb055.html.

14
subject the board to potential liability. Thus, the board is
faced with a practical and legal quandary—reign in John
Q. Board Member with a censure or reprimand and face
a First Amendment lawsuit or do nothing.
Such a result stands in direct contradiction to the
other circuits that have considered this issue. See Blair,
608 F.3d at 542 (“To be sure, the First Amendment
protects Blair’s discordant speech as a general matter;
it does not, however, immunize him from the political
fallout of what he says.”); Whitener, 112 F.3d at 745 (noting
the ability to discipline a member for “lack of decorum”
without running afoul of the First Amendment as “uncivil
behavior . . . can threaten the deliberative process”).
More importantly, the Fifth Circuit’s decision turns
the only avenue a school board or community college board
has to check a board member’s unprofessional conduct
into a constitutional landmine. Simply put, a public school
or community college board should not have to choose
between ensuring it is adhering to its duty to serve its
students by conducting its business in an efficient and
professional manner and a First Amendment lawsuit.
IV. The established ability of a board to express its
views through the censuring of a board member
does not implicate the First Amendment.
Part and parcel with a school board’s or community
college board’s right to self-governance is the right to
“speak for itself” and to “select the views it wants to
express.” See Pleasant Grove City, Utah v. Summum,
555 U.S. 460, 467-68 (2009) (collecting cases). Indeed,
as Judge Jones stated in her dissent from the denial of

15
the request for rehearing en banc, “[a]xiomatic to the
First Amendment is the principle that government ‘may
interject its own voice into public discourse.’” (Pet. App.
31a) (citing Phelan v. Laramie Cty. Cmty. Coll. Bd. of
Trustees, 235 F.3d 1243, 1247 (10th Cir. 2000)).
This important principle leads directly to John Q.
Board Member, his racist social media rant, and the
response by a community college or school district
somewhere in the Fifth Circuit, which again finds itself
at a crossroads—provide John Q. Board Member a
consequence for his comments that directly contradict
the school district’s or community college’s mission and
policy, while staring down the risk of a First Amendment
claim, or leave his racist comments unchecked.
This time, however, choosing the latter path also
exposes school boards to potential liability relating to
race discrimination under Title VI or 42 U.S.C. § 1983.
Indeed, it is easy to imagine the difficulties a school board
could have defending against deliberate indifference
claims under Title VI10 if a board cannot use a censure
or a reprimand to “interject its own voice into public
discourse” to condemn John Q. Board Member’s racist
and discriminatory comments. Likewise, at the heart of
a constitutional violation against a governmental entity
is municipal liability, which hinges on the adoption of a
custom or a policy.11 This places a board in the untenable
10. See, e.g., Blunt v. Lower Merion Sch. Dist., 767 F.3d 247,
272-73 (3d Cir. 2014) (applying deliberate indifference to claims of
intentional discrimination under Title VI); Sewell v. Monroe City
Sch. Bd., 974 F.3d 577, 583-87 (5th Cir. 2020) (same).
11. See Monell v. Dep’t of Social Servs., 436 U.S. 658 (1978).

16
position of either risking a § 1983 claim by exercising
its right to speak with the reprimand or censure of John
Q. Board Member or risking a § 1983 claim by failing to
condemn John Q. Board Member’s comments. But this is
exactly where the Fifth Circuit has left the elected boards
within its jurisdiction.
Finally, the Fifth Circuit’s decision fails to acknowledge
that condemning John Q. Board Member’s tirade through
a censure or a reprimand in no way “compel[s] others to
espouse or to suppress certain ideas and beliefs;” instead,
it is a school board’s or community college’s expression
of its own views. See Phelan, 235 F.3d at 1247-48. And it
logically follows that a board’s ability to speak for itself
should not be squelched due to the threat of a potential
lawsuit. More to the point, as Judge Ho commented, “[t]
he First Amendment guarantees freedom of speech, not
freedom from speech. It secures the right to criticize, not
the right not to be criticized.” (Pet. App. 40a) (emphasis
in original).
Conclusion
For the foregoing reasons, the Fifth Circuit erred
in finding Wilson has a cognizable claim under the First
Amendment stemming from the HCC Board of Trustee’s
censure. And in so finding, the Fifth Circuit issued a
decision in contravention to the other circuits that have
considered the issue, failed to provide any real guidance
to the school districts and community colleges in Texas,
Louisiana, and Mississippi, and intruded on the ability of
elected boards to self-govern and express their own views
in the public sphere. The Court should grant review and
reverse the decision below accordingly.

17
Respectfully submitted,
Meredith Prykryl Walker
Counsel of Record
Walsh Gallegos Treviño Russo
& Kyle P.C.
105 Decker Court, Suite 700
Irving, Texas 75062
(214) 574-8800
mwalker@wabsa.com
Counsel for Amicus Curiae

